     INSPECfOR GEI\:ERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, D.C. 20436



November 27, 1990




              WALUATI:ON OP TR£ COMLUSSI:ON' S       CORP~
               vrnt    B£QUil~mmRTS   OP PUBLI:C LAW 101-121
                           OR LOBBYI:NG ACTI:VI.TI:BS



Federal law requires that none of the funds appropriated by any Act
may be expended by the recipient of a Federal contract, grant,
loan, or cooperative agreement to pay any person for influencing
or attempting to influence an officer or employee of any agency,
a Member of Congress, an officer or employee of Congress, or an
employee of a Member of Congress in connection with any Federal
action.    The objective of this review was to evaluate the
Commission's compliance with, and the effectiveness of, the
requirements imposed by the law on the Commission, persons
requesting or receiving Federal contracts, grants, loans, or
cooperative agreements from the Commission, and persons requesting
or receiving from the Commission commitments providing for the
United States to insure or guarantee loans.

We found that the Commission had taken adequate steps to implement
the law by notifying contract specialists and a Contracting
Officer's Technical Representative      (COTR)  of the lobbying
provisions. The Commission had not filed a report to Congress in
March 1990, as required, stating that no information specified in
the law had been received.     The Office of Administration will
include this statement in the next semiannual report to be
submitted by November 30, 1990.    We have no recommendations for
improvements, although we do suggest that specific language on
reporting suspected violations be incorporated into the memoranda
to the COTRs.
The Director of Administration agreed with our findings and to
implement the suggestion.   His comments are presented in their
entirety as an Appendix to this report.
The law requires that the Inspector General's report be submitted
at the same time the agency submits its annual budget justification
to Congress. Accordingly, this report should be included with the
fiscal year 1992 budget package submitted to Congress in January
1991.

                                !J   r
                                (.J?tL{~   ,
                                               . '/
                                 ne E. Altenho n
                                 spector General
                         TABLE OF CONTENTS




INTRODUCTION AND SCOPE . .                                      . 1

BACKGROUND                                                         2

FINDINGS .                                                  .   • 3

IMPLEMENTATION .                                                • 3

SEMIANNUAL REPORTS .                                            . 4


Appendix -   Memorandum from Director, Office of Administration,
             dated November 20, 1990, on Draft Report
On October 23, 1989, the President signed into law the Department
of the Interior and Related Agencies Appropriations Act for FY 1990
(Public Law 101-121, hereafter referred to as the Act).     Section
319 of the Act amends Title 31, United States Code, by adding a new
section 1352, entitled "Limitation on use of appropriated funds to
influence certain Federal contracting and financial transactions."
Section 319 states that none of the funds appropriated by any Act
may be expended by the recipient of a Federal contract, grant,
loan, or cooperative agreement to pay any person for influencing
or attempting to influence an officer or employee of any agency,
a Member of Congress, an officer or employee of Congress, or an
employee of a Member of Congress in connection with any Federal
action.
The Act also requires that the Inspector General conduct an
evaluation.  As stated in the Act, the Inspector General is to
evaluate the Commission's compliance with, and the effectiveness
of, the requirements imposed by this section on the Commission,
persons requesting or receiving Federal contracts, grants, loans,
or cooperative agreements from the Commission, and persons
requesting or receiving from the Commission commitments providing
for the United States to insure or guarantee loans.

Our review was conducted in October 1990. The audit was performed
at the Commission headquarters in Washington, D.C., in the
Procurement Division, Office of Management Services (OMS), Office
of Administration.  We interviewed employees with responsibility
for developing and implementing agency policy and procedures
concerning the lobbying provisions. We also reviewed procurement
records, such as policy documents and contract files.

Section 1352 took effect with respect to Federal contracts, grants,
loans, cooperative agreements, loan insurance commitments, and loan
guarantee commitments entered into or made more than 60 days after
the date of enactment of the Act (December 23, 1989). our review
was limited to Federal contracts as the Commission does not have
grants, loans, or cooperative agreements.

The law was applicable to all contract transactions for over
$100,000 initiated after December 23, 1990, the effective date of
the law.     During the effective period, no solicitations or
modifications to contracts covered by the law for over $100,000
were initiated. One contract for over $100,000 was awarded.
This review was performed in accordance with generally accepted
government auditing standards.  Accordingly, the review included
an examination of internal controls and other auditing procedures
that were considered necessary under the circumstances.


                                 1
The Act requires the Director of the Office of Management and
Budget   (OMB) to issue government-wide guidance for agency
implementation of, and compliance with, the requirements of section
1352.   OMB published this guidance in the Federal Register on
December 20, 1989.
The Conference Report indicated that the conferees "expect that all
agencies shall expeditiously promulgate regulations to implement
the requirements of this section, and that all such regulations
shall be uniform and comply with the guidance issued by OMB." The
OMB guidance stated that three agencies were to co-sign a common
rule to appear in the Federal Acquisition Regulation (FAR) for most
contracts.   These agencies, the Department of Defense, General
Services Administration,    and National Aeronautics and Space
Administration, are authorized to issue FAR rulemaking effective
for all executive departments and agencies.    The common rule was
published in the Federal Register on January 30, 1990.        ·

OMB also designated twenty-nine major agencies to sign a
nonprocurement common rule for contracts not subject to the FAR,
grants, loans, cooperative agreements, loan insurance commitments,
and loan guarantee commitments.   This rule was published in the
Federal Register on February 26, 1990. The Commission was not one
of the 29 designated agencies and did not voluntarily issue a rule
as the Commission does not have separate regulations implementing
the FAR and does not have nonprocurement transactions.




                                 2
We tound that the Procurement Division took timely and adequate
steps to implement the law and regulations. The Commission did not
submit a report to Congress on March 31, 1990, as required by the
law. The Commission had no information to report and was unaware
of OMB guidance that a negative report should be submitted in this
situation.   The Director of Administration has taken steps to
ensure a negative report is submitted in the future if there is no
information to report.



We found that the Procurement Division took timely and adequate
steps to implement the law and regulations. The Commission has not
formally designated officials as required by the FAR but met the
intent of these provisions in a memorandum sent to the Contracting
Officer's Technical Representative (COTR).                   -
In brief, the law requires that solicitations with an estimated
cost of over $100,000 must include a certification from the bidders
on lobbying activities. On all contract transactions (awards and
modifications) initiated after the effective date of the law, the
successful bidder must sign a disclosure statement prior to the
contract award and file quarterly updates on any significant
changes in lobbying activities.
on February 5, 1990, the Chief of the Procurement Division notified
all division staff of the FAR guidance issued on January 30, 1990.
The staff were instructed to take the necessary steps to ensure
that, when transactions exceeded $100,000, the required provision
was included in the solicitation and the clause in the contract
awards.
In September 1990, a contract was awarded for over $100,000. The
contract specialist had the contractor sign a disclosure statement
before the contract was signed by the Commission • s contracting
officer. The Chief of the Procurement Division notified the COTR
via a memorandum that the contractor was required to file an
updated disclosure at the end of each calendar quarter when changes
occur which affect the accuracy of the information contained in
the disclosure filed by the contractor at the time of the award.
Furthermore, it was the COTR • s responsibility to remind the
contractor of this requirement and ensure that timely reports of
such changes are filed.




                                 3
The Commission has not formally designated officials as required
by two sections of the FAR.   Section 3.804 (b) states that the
contracting officer shall forward a copy of all contractor
disclosures to the official designated in accordance with agency
procedures for subsequent submission to Congress.  Section 3.806
states that suspected violations of the requirements of the law
shall be referred to the official designated in accordance with
agency procedures.
The Chief of the Procurement Division said that a formal
designation was not necessary due to the size of the Commission.
The memorandum to the COTR did contain instructions to send copies
of the disclosure statements to the Procurement Division.       The
Division prepares all procurement related reports which are
transmitted through the Directors of OMS and Administration for the
Chairman's signature.    Implicit in these instructions is the
requirement for the COTR to report any suspected violations. The
Chief also said that if the Division heard any complaints about
suspected violations, these would be reported to the Office of
General Counsel.
If done on a consistent basis, we believe memoranda sent to the
COTRs are sufficient to meet the intent of the FAR provisions
concerning designated officials.       However,  we believe the
Commission's compliance with section 3.806 and the COTRs'
responsibilities would be clearer if the memoranda included
specific language on reporting suspected violations.    We suggest
that terminology on reporting suspected violations be incorporated
in the instruction memoranda issued to the COTRs when transactions
subject to the FAR provisions are awarded.



The Commission did not submit a report to Congress on March 31,
1990, as required by the law.  The Commission had no information
to report and was unaware of OMB guidance that a negative report
should be submitted.
The Act imposes a semiannual reporting requirement on agencies with
respect to the contractor's declarations.       Specifically I  the
statute requires that the head of each agency shall collect and
compile information contained in the disclosure statements filed
during a six-month period ending on March 31 or September 30,
respectively, of that year.     On May 31 and November 30 of each
year, the head of the agency is to submit a report with this
compilation to the Secretary of the Senate and the Clerk of the
House of Representatives.      The OMB interim final guidance of
December 20, 1989, states that agencies shall submit a negative
report if no disclosure statements were received.

                                 4
Since the effective date for the law was December 23, 1989, the
first semiannual report should have been submitted on May 31, 1990.
The Commission did not receive any disclosure statements during the
applicable period of December 23, 1989, through March 31, 1990.
The Commission should have, but did not, file a negative report.
The Procurement Division was not aware of the OMB guidance of
December 20 that included the requirement to file a negative
report.    The guidance issued in January did not include this
provision.    The General Counsel confirmed in an opinion dated
October 5, 1990, that the Commission should have submitted a
negative report.

The Director of Administration notified OMS on October 10, 1990,
of the General Counsel's opinion.    He instructed the office to
include the periods ending March 31 and September 30, 1990, in the
semiannual report due to be submitted by November 30, 1990.




                                 5
                                                                         Appendix


                                                                  AD-H-696




     UNITED STATES INTERNATIONAL TRADE COMMISSION
              - - - - - - - - - - - - - - - - - ··--- -·------------ ...
                                                             ..




                           WASHINGTON, DC 20436



     Hovemher 20, 1990


     MBMORABDlJM


     TO:



     SUBJECT:



     As requested by your memorand~ .dated October 24, 1990 (IG-H-107) ,
     submitted is the Office of AdnriDistration's response to the subject
     draft audit report issued on October 1990. In accordance with Section
     11 of the USITC Directive 1701, the Commissioners have had an
     opportunity to comment on the response and the Chairman has approved
     it.

     T.he Office of Administration has adopted the Inspector General's
     suggestions in the draft report and bas no other comments.

     Please call me at 252-1131 or.. Bill Stuchhery at 252-1135 if you have
     any questions.




     cc: eonmr; ssion
         Director, Office of Management Services
         Chief, Procurement Division·




..
